                     DEPARTMENT OF HEALTH AND HUMAN SERVICES


                OFFICE OF INSPECTOR GENERAL
                                     WAS HINGTO N, DC 2020!



                                        SEP 2 4 2013

TO: 	          Marilyn Tavenner
               Administrator
               Centers for Medicare & Medicaid Services
                    /S/
FROM:          Stuart Wright
               Deputy Inspector General
                 for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Utilization ofMedicare Ambulance Transports,
           2002-2011, OEI-09-12-00350


This memorandum report provides an overview of the changes in utilization of Medicare
Part B ambulance transports from 2002 through 2011.

SUMMARY

The number of ambulance transports reimbursed by Medicare Part B increased 69 percent
from 2002 to 2011. This memorandum report provides information about the patterns of
this utilization growth. In a forthcoming report, the Office oflnspector General (OIG)
will identify ambulance suppliers that exhibited characteristics of questionable billing in
the first half of 2012 and geographic areas with high numbers of these suppliers.

From 2002 to 2011, the number of Medicare fee-for-service beneficiaries who received
transports and the number of ambulance suppliers both increased. The number of
beneficiaries who received transports increased 34 percent, although the total number of
Medicare fee-for-service beneficiaries increased just 7 percent during the same
period. The number of ambulance suppliers increased 26 percent. In addition, the
number of ambulance suppliers that primarily provided basic life support (BLS)
nonemergency transports nearly doubled.

The increase in ambulance transports from 2002 to 2011 varied by the origin and
destination of the transport. The number of transports to or from independent dialysis
facilities (dialysis-related transports) increased 269 percent. Further, beneficiaries with
end stage renal disease (ESRD) , a condition that often requires dialysis treatment, used a
Page 2 – Marilyn Tavenner


growing and disproportionate amount of transports each year.1 Although transports to or
from hospitals increased at a significantly slower rate from 2002 to 2011 (55 percent)
than did dialysis-related transports, they represented a larger proportion of all transports
(79 percent). Outpatient visits to receive partial hospitalization program services at
community mental health centers by beneficiaries who received transports increased
829 percent.2

We also found that although all States experienced increases in transports from 2002 to
2011, utilization changes varied widely by State. States with particularly high growth in
ambulance utilization experienced increases in dialysis-related transports that were
greater than the national increase. These States also experienced increases that were
greater than the national increase in BLS nonemergency transports and in inpatient
hospital visits to treat renal failure in beneficiaries who received transports.

BACKGROUND

Utilization of Medicare Ambulance Transports
Medicare Part B payments for ambulance transports continue to grow at a faster rate than
all Medicare Part B payments. In 1998, OIG reported that Medicare Part B payments for
ambulance transports “more than tripled between 1987 and 1996—from $602 million to
almost $2.1 billion,” although during this time all Medicare Part B payments doubled.3, 4
This trend continued after that period. From 2002 to 2011, Medicare Part B payments for
ambulance transports increased 130 percent, from $2.0 billion to $4.5 billion.5 During
this period, all Medicare Part B payments increased 74 percent.6

Several factors have contributed to the increase in payments for ambulance transports.
The increase was caused in part by inflation and the transition to the national fee schedule
for Medicare ambulance transports, which was phased in from 2002 through 2005.7

1
  ESRD is permanent kidney failure that requires a regular course of dialysis or a kidney transplant.
Centers for Medicare & Medicaid Services (CMS), Medicare Coverage of Kidney Dialysis & Kidney
Transplant Services. Accessed at http://www.medicare.gov/Pubs/pdf/10128.pdf, p. 53 on July 3, 2013.
2
  Partial hospitalization programs provide intensive psychiatric care and resemble structured, short-term
hospital inpatient programs. Patients admitted to a partial hospitalization program (1) do not require
24-hour supervision as provided in an inpatient setting, (2) must have a support system outside the
program, and (3) must not be an imminent danger to themselves or others. CMS, Medicare Benefit Policy
Manual, ch. 6 § 70.3.
3
  OIG, Medical Necessity of Medicare Ambulance Services, OEI-09-95-00412, December 1998.
4
  Medicare Part B payments totaled $28.4 billion in 1987 and $59.1 billion in 1996. CMS, Medicare and
Medicaid Statistical Supplement. 2001 Edition, Table 12.
5
  OIG analysis of CMS Physician/Supplier Part B claims file. Total Medicare-allowed amounts increased
from $2.5 billion to $5.7 billion.
6
  Medicare Part B payments totaled $92.4 billion in 2002 and $160.9 billion in 2011. CMS, Medicare and
Medicaid Statistical Supplement. 2012 Edition, Table 3.3.
7
  Ambulance fee-schedule amounts are adjusted for inflation using the urban consumer price index, which
increased 25 percent from 2002 to 2011. After taking inflation into account, average allowances are an
estimated 3 percent higher than they were before the national fee schedule was implemented. United States
Government Accountability Office (GAO), Ambulance Providers: Costs and Expected Margins Vary
Greatly, GAO-07-383, p. 6.



Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 3 – Marilyn Tavenner


Continued growth in the utilization of transports has also contributed to the increase.
From 2002 to 2011, the number of Medicare ambulance transports increased 69 percent
(from 8.7 million to 14.8 million).8

Findings from past OIG reports indicate that the ambulance benefit is vulnerable to
abuse. One report found that in 1996, two-thirds of ambulance transports that did not
result in expected hospital or nursing home admissions or emergency room care were
medically unnecessary.9 Another report found that 25 percent of ambulance transports in
2002 did not meet Medicare program requirements, resulting in an estimated
$402 million in improper payments.10 The report also found that 27 percent of transports
to and from independent dialysis facilities in 2002 did not meet coverage requirements.

Recent cases involving ambulance suppliers also indicate that the ambulance benefit is
vulnerable to fraud. For example, in October 2012, administrators of a Houston-based
ambulance supplier pleaded guilty to submitting claims for $1.7 million to Medicare for
transports that were miscoded, not medically necessary, and in some cases, not
provided.11 In February 2013, an ambulance supplier operating in South Carolina paid
$800,000 to settle allegations that it fraudulently billed Medicare for routine,
nonemergency transports that were not medically necessary and that it created fraudulent
documents to support the transports.12

Medicare Coverage of Ambulance Transports
Medicare covers ambulance transports when a beneficiary’s medical condition at the time
of transport is such that using other means of transportation would endanger the
beneficiary’s health.13, 14 In addition, the transport must be to receive a Medicare-covered
service or to return from such a service.15 Medicare does not limit the number of
ambulance transports per beneficiary.16 Medicare does not cover means of transport other
than ambulance.

Covered destinations. A medically necessary ambulance transport may be covered to and
from the nearest appropriate facility to obtain necessary diagnostic and/or therapeutic


8
  OIG analysis of 2002 and 2011 Physician/Supplier Part B claims file. 

9
  OIG, Medical Necessity of Medicare Ambulance Services, OEI-09-95-00412, December 1998. 

10
   OIG, Medicare Payments for Ambulance Transports, OEI-05-02-00590, January 2006. 

11
   United States Department of Justice, Houston Ambulance Company Administrator Pleads Guilty to 

Fraud. Accessed at http://www.justice.gov/opa/pr/2012/October/12-crm-1242.html on March 1, 2013. 

12
   United States Department of Justice, South Carolina Ambulance Company to Pay U.S. $800,000 to

Resolve False Claims Allegations. Accessed at http://www.justice.gov/opa/pr/2013/February/13-civ-
232.html on March 1, 2013. 

13
   CMS, Medicare Benefit Policy Manual, ch. 10 § 10.2.1. 

14
   Although they are not required to do so, suppliers may include on a transport claim a diagnosis code that 

characterizes the beneficiary’s medical condition at the time of transport. This diagnosis code is used by

suppliers to communicate the beneficiary’s condition as reported by the dispatch center and as observed by

the ambulance crew.

15
   CMS, Medicare Benefit Policy Manual, ch. 10 § 10.2.1. 

16
   Social Security Act § 1861(s)(7). 




Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 4 – Marilyn Tavenner


services.17 Medicare covers ambulance transports only to hospitals (including critical
access hospitals), skilled nursing facilities, the beneficiary’s home, and (for beneficiaries
with ESRD who require dialysis) dialysis facilities.18

Although dialysis facilities are a covered destination, transports to them do not usually
meet coverage requirements under Medicare.19 One Medicare Administrative Contractor
estimated that 10 percent of beneficiaries who receive hemodialysis—one of the two
main types of dialysis—require ambulance transportation to receive treatment.20
Beneficiaries who receive dialysis typically have three dialysis sessions per week.21
Therefore, beneficiaries who require transportation by ambulance to dialysis facilities
would typically receive six transports per week.

Transport levels. Medicare covers seven levels of ground ambulance transports
(transport levels).22 Each transport level is billed using a Health Care Procedure Coding
System code (procedure code). Table 1 lists each procedure code, transport level, the
corresponding total amount allowed by Medicare, the total number of transports, and the
average allowed amount per transport by Medicare in 2011.

Table 1: Medicare Allowances in 2011 for Ambulance Transports and
Corresponding Mileage, by Procedure Code
 Procedure                                                  Total Allowed              Number of            Average Allowed
                 Transport Level
 Code                                                            Amount*               Transports       Amount per Transport*
                 Advanced life support
 A0426                                                       $153,146,601                  318,886                            $480
                 (ALS) nonemergency
 A0427           ALS emergency                             $2,336,057,963                4,859,616                            $481
 A0428           BLS nonemergency                          $1,938,054,934                6,714,246                            $289
 A0429           BLS emergency                             $1,084,838,255                2,643,313                            $410
 A0432           Paramedic ALS intercept                        $1,137,377                   13,079                            $87
 A0433           ALS2                                         $76,074,065                  112,038                            $679
 A0434           Specialty care transport                     $91,540,103                  103,641                            $883
*Includes amounts allowed for corresponding mileage for these transports. Mileage, billed using procedure code A0425, is billed
together with the transport procedure code. Mileage does not apply to paramedic ALS intercepts transports. Dollar amounts have been
rounded to the nearest whole number.
Source: OIG analysis of 2011 Medicare Part B ambulance transports, 2013.


The transport levels are distinguished by the qualifications of the ambulance crew and the
medical care provided.23 All BLS transports require an ambulance crew certified at least

17
   CMS, Medicare Benefit Policy Manual, ch. 10 § 10.3. “Appropriate facility” means that the institution is 

generally equipped to provide the needed hospital care or skilled nursing care for the illness or injury. 

18
   CMS, Medicare Benefit Policy Manual, ch. 10 § 10.3.

19
   Palmetto GBA, Nonemergency Services. Accessed at 

http://www.palmettogba.com/palmetto/providers.nsf/DocsCat/Providers~Jurisdiction%201%20Part%20B~

Browse%20by%20Specialty~Ambulance~8EEMHW2614?open&navmenu=Browse^by^Specialty|||| on 

May 1, 2012. 

20
   Novitas Solutions, Inc., Ambulance (Grounds) Services L32252. 

21
   CMS, Medicare Benefit Policy Manual, ch. 11 § 30.1.

22
   Medicare also covers air ambulance transports by airplane and helicopter. 

23
   CMS, Medicare Benefit Policy Manual, ch. 10 § 30.1.1. This chapter defines the transport levels. 




Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 5 – Marilyn Tavenner


as basic emergency medical technicians.24 All ALS transports require an ambulance crew
certified at least as intermediate or paramedic emergency medical technicians. For the
ambulance transport to be covered as an ALS transport, the beneficiary’s condition must
require an assessment or a service that can be provided only by an ALS crew. Paramedic
ALS intercept transports and ALS2 transports are variations of ALS transports.25
Specialty care transports are interfacility transports for critically injured or ill
beneficiaries and require that the ambulance crew include a health professional specialist
(e.g., emergency nurse) or a paramedic emergency medical technician with additional
training.

The transport level depends not only on the level of service, but also on whether the
transport is provided in an emergency or nonemergency situation.26 Emergency
transports are provided according to the protocol of the local 911 or equivalent dispatch.27
Lack of immediate medical attention in these cases could reasonably be expected to place
the beneficiary’s health in jeopardy, result in serious impairment of bodily functions, or
result in serious dysfunction of any bodily organ. Symptoms or conditions that may
warrant an emergency transport include, but are not limited to, severe pain, bleeding, or
unconsciousness.28 Nonemergency transports are provided in the absence of an
emergency to beneficiaries who are bed-confined before and after transportation, or when
transportation by ambulance is medically required.29, 30 Nonemergency transports may be
scheduled or unscheduled and may be one-time or recurring.

Medicare covers mileage to and from the nearest appropriate facility when the ambulance
transport is covered.31 Only miles traveled with the beneficiary onboard are covered.

Related Work
Both GAO and the Medicare Payment Advisory Commission (MedPAC) have reported
on the growth in ambulance utilization as part of their work on Medicare Part B payments
for ambulance transports. In October 2012, GAO reported on the effect of the ambulance
24
   State and local laws that establish qualifications for emergency medical technicians vary. For example,
only in some jurisdictions are basic emergency medical technicians permitted to establish a peripheral
intravenous line.
25
   Paramedic intercept transports are provided when a BLS ambulance is dispatched, but the beneficiary
needs ALS service. For these transports, a paramedic emergency medical technician meets the BLS
ambulance at the scene or once the ambulance is on the way to the hospital. ALS2 transports include the
provision of at least three separate administrations of one or more medications or the provision of at least
one ALS2 procedure (e.g., central venous line, chest decompression).
26
   CMS, Medicare Benefit Policy Manual, ch. 10 § 30.1.1.
27
   Ibid.
28
   CMS, Medicare Coverage of Ambulance Services, pp. 5–6. Accessed at
http://www.medicare.gov/Publications/Pubs/pdf/11021.pdf on May 25, 2012.
29
   CMS, Medicare Benefit Policy Manual, ch. 10 § 10.2.3. To be considered bed-confined, the beneficiary
must be unable to get up from bed without assistance, ambulate, or sit in a chair or wheelchair.
30
   While bed-confinement is important in determining the appropriateness of nonemergency ambulance
transports, bed-confinement alone is neither sufficient nor necessary to determine coverage for Medicare’s
ambulance benefit.
31
   CMS, Medicare Benefit Policy Manual, ch. 10 § 10.3. Mileage is billed on the same claim as the
transport using procedure code A0425.



Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 6 – Marilyn Tavenner


fee schedule on beneficiaries’ access to care. GAO noted that the increase in utilization
from 2004 to 2010 was due primarily to an increase in BLS nonemergency transports,
and that the increase was the greatest in super-rural areas.32 In addition to fraud and
abuse, the GAO report cites the following as potential reasons for utilization increases:
(1) new or increased billing by local governments under budgetary pressures that
previously refrained from billing Medicare for transports and (2) the introduction of the
national fee schedule for ambulance transports.33 In June 2013, MedPAC reported on the
ambulance fee schedule. MedPAC also noted that the utilization of BLS nonemergency
transports, particularly those that were dialysis-related, grew faster than the utilization of
other transport levels from 2007 to 2011.34

OIG is conducting additional analysis of national Medicare ambulance claims data. This
analysis will identify ambulance suppliers that exhibited characteristics of questionable
billing in the first half of 2012, as well as geographic areas with high numbers of these
suppliers.

METHODOLOGY

Scope
This evaluation is national in scope and is based on all claims for ground ambulance transports
from CMS’s Physician/Supplier Part B claims files from 2002 to 2011. We analyzed claims
billed under the procedure codes A0425–A0429 and A0433–A0434.35 We did not review
transports billed by institution-based ambulance suppliers.36 We analyzed only transports for
which mileage was also billed.37

We did not review the medical records of beneficiaries who received transports.
Therefore, we did not determine whether the transports were medically necessary or met
coding and documentation requirements for coverage. Generally, we cannot conclude
whether fraud, waste, or abuse, or other potential reasons—such as new or increased
billing by local governments or the introduction of the national ambulance fee
schedule—caused the changes in ambulance utilization that we report.


32
   Super-rural areas have population densities lower than rural areas. GAO, Costs and Margins Varied 

Widely; Transports of Beneficiaries Have Increased, GAO-13-6, October 2012.

33
   Ibid. 

34
   Ambulance suppliers in this report include independent and institution-based ambulance suppliers. 

MedPAC, Report to the Congress, Medicare and the Health Care Delivery System, ch. 7, Mandated 

report: Medicare payment for ambulance services, pp. 178-179, June 2013. 

35
   We did not analyze claims for paramedic ALS intercept transports, which accounted for less than 

one-tenth of 1 percent of all transports and were provided only in New York. In our analysis, we also

included mileage procedure codes A0380 and A0390 and transport procedure codes Q3019 and Q3020,

which were phased out as part of the transition to the national fee schedule. 

36
   Four percent of ambulance suppliers in 2011 were institution-based suppliers. OIG analysis of CMS’s 

2011 Outpatient 100-percent Standard Analytic File. 

37
   In 2011, less than 2 percent of transports were billed without mileage. These include paramedic ALS 

intercept transports and transports for which the beneficiary died after the ambulance was dispatched but 

before it arrived.




Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 7 – Marilyn Tavenner


Data Sources and Analysis
We used CMS’s Physician/Supplier Part B claims file, the Denominator file for
2002 through 2011, and the Medicare Enrollment Database for 2011. We also used
CMS’s Inpatient and Outpatient 100-percent Standard Analytic Files for 2002 and 2011.
The Physician/Supplier Part B claims file contains claims submitted by independent
ambulance suppliers and other noninstitutional providers such as physicians, physician
assistants, and nurse practitioners. The Denominator file and Medicare Enrollment
Database both contain enrollment information, such as date of birth and eligibility
category, about each Medicare beneficiary. The Inpatient and Outpatient Standard
Analytic Files contain claims submitted by institutions, such as hospitals. We used the
18-month files, which include claims processed as of June 30th of the year following the
dates of service.

We determined the extent to which the utilization of ambulance services changed from
2002 to 2011. For each year, we analyzed the characteristics of beneficiaries, suppliers,
and transports and calculated the percentage differences since 2002. We also calculated
changes in utilization by State. Furthermore, we calculated the change in certain
transport characteristics in the States with the largest utilization increases that also
accounted for at least 3 percent of 2011 transports nationally (high-growth States). See
Appendix A for more details of our data analysis.

This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation approved by the Council of the Inspectors General on Integrity and
Efficiency.

RESULTS

The Number of Beneficiaries Who Received Transports Increased 34 Percent,
Compared With the 7-Percent Increase in All Fee-For-Service Medicare
Beneficiaries, From 2002 to 2011
Over 1 million more beneficiaries received transports in 2011 than in 2002, an increase of
34 percent. In 2002, 3.6 million beneficiaries received transports, compared with
4.8 million beneficiaries in 2011. In contrast, the number of Medicare fee-for-service
beneficiaries increased just 7 percent from 2002 to 2011.

On average, beneficiaries received more transports. Among beneficiaries receiving
transports, the number of transports a beneficiary received each year increased from an
average of 2.4 in 2002 to an average of 3.1 in 2011.

Beneficiaries who received transports were younger, on average, and more likely to be
eligible for Medicare because of a disability in 2011 than in 2002. The average age of
beneficiaries who received transports decreased from 76.7 years to 75.4 years. This
change resembled that of the Medicare fee-for-service population, among whom the
average age decreased from 70.6 years to 69.7 years. The percentage of beneficiaries
who received transports and were eligible because of a disability increased from
13 percent in 2002 to 19 percent in 2011. Similarly, the percentage of Medicare



Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 8 – Marilyn Tavenner


fee-for-service beneficiaries who were eligible because of a disability increased from
15 percent in 2002 to 18 percent in 2011. Table 2 presents the percentages of
beneficiaries who received transports by their Medicare eligibility status from 2002 to
2011.

Table 2: Percentage of Beneficiaries Who Received Transports
From 2002 to 2011, by Medicare Eligibility Status
                                                 Disabled                   Has ESRD
               Aged 65 and Over                                   (Regardless of Age
 Year                                       (Under 65 and
                  Without ESRD                                                         *
                                            Without ESRD)        or Disability Status)
 2002                        85.1%                     13.0%                        2.3%
 2003                        84.4%                     13.6%                        2.7%
 2004                        83.2%                     14.4%                        3.0%
 2005                        82.6%                     15.0%                        3.1%
 2006                        82.2%                     15.2%                        3.3%
 2007                        81.5%                     15.7%                        3.4%
 2008                        81.1%                     16.1%                        3.4%
 2009                        80.4%                     16.7%                        3.6%
 2010                        80.0%                     17.4%                        3.3%
 2011                        78.3%                     18.8%                        3.2%
*There are five Medicare eligibility categories. We combined into a single category the three
categories of beneficiaries with ESRD. (These three categories distinguish ESRD beneficiaries
by age and disability status.)
Source: OIG analysis of 2002 to 2011 Medicare Part B ambulance transports, 2013.
Note: Percentages do not add to 100 percent because transport-receiving beneficiaries whose
age or ESRD status changed during the course of the year were counted more than once.
Less than 1 percent of beneficiaries who received transports were counted more than once
in each year.


Twenty-Six Percent More Ambulance Suppliers Provided Transports in 2011 Than
in 2002
Over 3,500 more ambulance suppliers provided transports in 2011 than in 2002 and, on
average, suppliers provided more transports. The number of suppliers increased
26 percent (from 14,087 to 17,776). Additionally, suppliers provided an average of
34 percent more transports in 2011 than in 2002 (increasing from 619 to 830 transports
per supplier).

Ambulance suppliers billed for greater average transport distances. The average trip
length increased 1.6 miles (from 7.8 to 9.4 miles). Furthermore, suppliers billed for
longer-mileage transports—i.e., those that were more than 20 miles—111 percent more
often in 2011 than in 2002. However, Medicare beneficiaries were no more likely to live
in a rural location in 2011 than in 2002.38




38
  In 2002, 31.2 million Medicare beneficiaries lived in urban locations and 9.3 million in rural

locations. In 2011, 39.1 million Medicare beneficiaries lived in urban locations and 9.8 million in rural

locations. CMS, Medicare and Medicaid Statistical Supplement. 2004 Edition, Table 6, and 2012 Edition, 

Table 2.3. 




Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 9 – Marilyn Tavenner


The number of ambulance suppliers that primarily provided BLS nonemergency
transports nearly doubled.39 The number of ambulance suppliers that primarily provided
a single transport level increased from 2002 to 2011. In particular, the number of
suppliers that primarily provided BLS nonemergency transports increased 92 percent
during this period. In 2002, these suppliers represented 7 percent of all suppliers and
billed for 16 percent of all transports. In 2011, they represented 11 percent of suppliers
and billed for 30 percent of all transports. Table 3 presents the growth in the numbers of
suppliers that usually provided a single transport level.

Table 3: Ambulance Suppliers That Primarily Provided a Single Transport Level
in 2002 and 2011
                        Suppliers That              Suppliers That             Suppliers That        Suppliers That
                    Primarily Provided          Primarily Provided         Primarily Provided        Provided a Mix            All
     Year
                   BLS Nonemergency               ALS Emergency               Another Single           of Transport      Suppliers
                            Transports                  Transports           Transport Level*                Levels
     2002                              981                      2,862                      2,839                 7,405     14,087
     2011                            1,881                      4,060                      3,067                 8,768     17,776
     Percentage
                                      92%                        42%                          8%                  18%         26%
     Change
 *Most of these suppliers primarily provided BLS emergency transports (94 percent in 2002 and 97 percent in 2011). 

 Source: OIG analysis of 2002 to 2011 Medicare Part B ambulance transports, 2013. 



The number of suppliers that primarily provided ALS emergency transports also
increased at a greater rate than the overall number of suppliers. In 2002, these suppliers
represented 20 percent of all suppliers and billed for 8 percent of all transports. In
2011, they represented 23 percent of suppliers and billed for 10 percent of all transports.

In addition to the growth in the numbers of suppliers that primarily provided BLS
nonemergency transports or ALS emergency transports, the overall use of these transport
levels increased more than that of other transport levels. In 2002, beneficiaries received
3.5 million BLS nonemergency transports, a figure that increased to 6.7 million in
2011 (a 94-percent increase). Similarly, the total number of ALS emergency transports
increased from 2.9 million in 2002 to 4.9 million in 2011 (a 68-percent increase). See
Appendix B for the changes from 2002 to 2011 in the use of each transport level.

The Number of Dialysis-Related Transports Increased 269 Percent From 2002 to
2011
Dialysis-related transports increased the most, compared with transports to or from other
origins and destinations.40 These transports increased 269 percent (from 753,741 to
2,780,323). They represented 9 percent of all transports in 2002 and 19 percent of all
transports in 2011.



39
   For the purpose of this report, we use the term “primarily provided” to mean those suppliers for which a 

single transport level accounted for at least 75 percent of the supplier’s transports. 

40
   We considered a transport to be dialysis-related if the two-letter modifier on the claim indicated an

independent dialysis facility as the origin or destination.




Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 10 – Marilyn Tavenner


Beneficiaries with ESRD who received transports accounted for an increasing percentage
of all ambulance transports. Although beneficiaries with ESRD did not make up a large
percentage of beneficiaries who received transports, this group used a growing and
disproportionate number of transports. From 2002 to 2011, the percentage of
beneficiaries with ESRD who received transports varied little. However, the percentage
of transports associated with these beneficiaries increased from 11 percent to 22 percent.
Most of these transports were dialysis-related. Figure 1 presents the percentage of
beneficiaries with ESRD who received transports and their share of all transports from
2002 through 2011.

Figure 1: Percentage of Beneficiaries With ESRD Who Received Transports
and Their Share of All Ambulance Transports From 2002 to 2011
     30%
                                                                                           25%
                                                           24%         24%          25%
     25%                                                                                                     22%
                                                21%                                                   21%
     20%                            19%

                         14%
     15%
             11%
     10%

     5%              3%          3%          3%         3%         3%          3%         4%     3%         3%
           2%

     0%

            2002       2003       2004        2005       2006        2007          2008   2009    2010      2011


                                 Percentage of beneficiaries         Percentage of transports

Source: OIG analysis of 2002 to 2011 Medicare Part B ambulance transports, 2013.
Note: Percentages are rounded to the nearest whole number.


More Medicare fee-for-service beneficiaries with ESRD received transports and, on
average, received a greater number of transports in 2011 than in 2002. The number of
transport-receiving Medicare fee-for-service beneficiaries with ESRD increased
85 percent. In contrast, the number of all Medicare fee-for-service beneficiaries with
ESRD increased 24 percent during the same period. In addition, the average number of
transports a beneficiary with ESRD received each year increased from 12 transports to
21 transports.

The Number of Transports To or From Hospitals Increased 55 Percent From 2002
to 2011
The number of transports to or from hospitals increased significantly less than the
number of dialysis-related transports but accounted for 79 percent of all transports in
2011.41 The number of transports to or from hospitals increased 55 percent, from
7.5 million in 2002 to 11.7 million in 2011. In 2011, over three-quarters of transports to
or from hospitals had hospitals as their destinations (for example, from the beneficiary’s
41
  We considered a transport to be to or from the hospital if the two-letter modifier indicated a hospital as
the origin or destination.



Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 11 – Marilyn Tavenner


residence to the hospital), and the remainder were from hospitals to other destinations.
Between 2002 and 2011, there were changes in the origins, transport levels, medical
conditions of beneficiaries at the time of transport, and destination facilities of transports
to hospitals.

The origins of transports to hospitals changed. Notably, transports to hospitals
originating from the scene of an accident or acute event increased 112 percent from
2002 to 2011, representing 13 percent of transports to hospitals in 2011. Transports
originating from a residence increased 51 percent, representing half of all transports to
hospitals in 2011.

Suppliers provided certain levels of transports more frequently for transports to hospitals.
Emergency transports to hospitals increased 65 percent from 2002 to 2011, compared
with the 14-percent increase in nonemergency transports to hospitals. The type of
emergency transport level that increased the most was ALS emergency transports, which
increased 69 percent and represented 55 percent of all transports to hospitals in 2011.
BLS emergency transports increased 60 percent from 2002 to 2011, and represented
30 percent of transports to hospitals in 2011.

For transports to hospitals, the respective prevalences of 15 diagnosis codes that represent
the beneficiary’s medical condition at the time of transport increased at least
100 percent.42 Of all the diagnosis codes used to report the beneficiary’s medical
condition at the time of transport, 15 codes were reported more than twice as often in
2011 than in 2002 among transports to hospitals.43 Transports using these 15 codes
represented a combined 35 percent of transports to hospitals in 2011. See Table 4 for the
changes from 2002 to 2011 in medical conditions reported at the time of transport among
transports to hospitals.




42
   This analysis is based on transports to hospitals for which the supplier reported the diagnosis code that
represents the beneficiary’s medical condition at the time of transport. The diagnosis code was reported on
92 percent and 100 percent of transport claims in 2002 and 2011, respectively. OIG analysis of 2002 and
2011 CMS Physician/Supplier Part B claims file.
43
   We report only the diagnosis codes that each represented at least 0.5 percent of transports to hospitals in
2011.



Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 12 – Marilyn Tavenner


Table 4: Most Frequent Medical Conditions Reported at the Time of Transport
Among Transports to Hospitals by Percentage Change From 2002 to 2011
                                                                             Percentage Change,             Percentage of 2011
 Medical Condition at the Time of Transport
                                                                                      2002–2011                    Transports
 Gastritis and duodenitis                                                                    3,090%                      0.7%
 Crushing injury or internal injury                                                             939%                     0.8%
 Diabetes mellitus without complication                                                         606%                     0.7%
 Other fractures                                                                                468%                     1.1%
 Other nervous system disorders                                                                 239%                     1.4%
 Schizophrenia and other psychotic disorders                                                    193%                     1.5%
 Residual codes, unclassified                                                                   176%                    13.1%
 Other circulatory disease                                                                      143%                     1.8%
 Other injuries and conditions due to external causes                                           143%                     5.8%
 Headache, including migraine                                                                   136%                     1.0%
 Complication of device, implant, or graft                                                      135%                     0.7%
 Delirium, dementia, and amnestic and other cognitive
                                                                                                133%                     0.7%
 disorders
 Nausea and vomiting                                                                            128%                     2.6%
 Open wounds of extremities                                                                     123%                     0.5%
 Other connective tissue disease                                                                101%                     2.1%
Source: OIG analysis of 2002 and 2011 Medicare Part B ambulance transports, 2013. 

Note: Includes only those conditions that account for more than 0.5 percent of 2011 transports to hospitals. 



Not all transports that were billed using the destination modifier code for hospitals were
to hospitals; the number of transports to nonhospital facilities increased. Transports to
hospitals resulted in outpatient visits at hospitals and nonhospital facilities more often
than inpatient hospital visits. Beneficiaries who received transports made 40 percent
more outpatient hospital visits in 2011 than in 2002 (from 3.6 million visits in 2002 to
5.0 million in 2011). In contrast, all Medicare fee-for-service beneficiaries made
20 percent more outpatient hospital visits. Beneficiaries who received transports made
37 percent more outpatient visits at nonhospital facilities (from 373,734 visits in 2002 to
512,963 visits in 2011).44 In contrast, all Medicare fee-for-service beneficiaries made
27 percent more outpatient visits at nonhospital facilities. The number of inpatient
hospital visits made by beneficiaries who received transports increased 13 percent (from
3.3 to 3.7 million), mirroring the increase in inpatient hospital admissions from 2002 to
2011.
The number of outpatient visits to certain nonhospital facilities made by beneficiaries
who received transports increased greatly. In particular, between 2002 and
2011 there was an 829-percent increase in visits by beneficiaries who received transports
to receive partial hospitalization program services at community mental health




44
  Although beneficiaries who received transports visited nonhospital facilities such as community mental
health centers and dialysis facilities, the associated transports were billed by the supplier as though they
involved a visit to a hospital.



Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 13 – Marilyn Tavenner


centers.45 In contrast, all outpatient visits to receive partial hospitalization program
services at community mental health centers increased only 157 percent during this
period. See Table 5 for the types of visits and facilities associated with transports to
hospitals.

Table 5: Types of Visits and Facilities Associated With Ambulance
Transports to Hospitals by Percentage Change From 2002 to 2011
                                                                                             Percentage of Visits
                                                       Percentage Change,
 Types of Visits and Facilities                                                       Associated With Transports
                                                                2002–2011
                                                                                             to Hospitals in 2011
 Inpatient visits at hospitals                                             13%                                   40.3%
 Outpatient visits at hospitals*                                           40%                                   54.2%
 Outpatient visits at nonhospital facilities**                             37%                                     5.5%
     Community mental health centers                                 829%                                     0.1%
     Federally qualified health centers                              142%                                     0.7%
     Independent dialysis facilities                                   62%                                    1.9%
     Rural health clinics                                              67%                                    0.9%
*Includes critical access hospitals and Medicare Part B services provided to inpatient beneficiaries without Part A coverage. 

**We report the facility types with the greatest increases from 2002 to 2011. 

Source: OIG analysis of 2002 to 2011 Medicare Part B ambulance transports, 2013. 




Beneficiaries were transported to hospitals for inpatient visits to treat certain conditions
more frequently in 2011 than in 2002.46 Visits to treat septicemia increased 164 percent,
visits to treat renal failure increased 158 percent, and visits related to rehabilitation
increased 99 percent.
Increases in Ambulance Utilization From 2002 to 2011 Varied Widely by State
Although all States experienced increases in transports from 2002 to 2011, utilization
changes varied widely by State. High-growth States experienced increases that were
greater than the national increase in dialysis-related transports, BLS nonemergency
transports, and inpatient hospital visits to treat renal failure in beneficiaries who received
transports.

Among the States, the change in ambulance utilization varied from an increase of
8 percent in Utah to an increase of 289 percent in California. Ten States experienced
increases of greater than 100 percent and six States experienced increases of 25 percent
or less. Figure 2 illustrates the percentage change from 2002 to 2011 in ambulance
utilization by State.

45
   Ambulance transports to partial hospitalization programs generally do not meet Medicare coverage
requirements. Most beneficiaries do not meet the coverage criteria for both partial hospitalization programs
and ambulance transports. For example, under a now-retired policy from Trailblazer Health Enterprises
LLC, if a beneficiary was transported via ambulance because he was a danger to himself and/or others, he
would not have been eligible for the partial hospitalization program. Trailblazer Health Enterprises, LLC,
Ambulance, June 2012, pp. 61–62. (This policy is retired because Trailblazer Health Enterprises, LLC, is
no longer a MAC.)
46
   We identified claims for inpatient hospital visits that were associated with beneficiaries’ transports to
hospitals. We report the conditions that represent at least 1 percent of all conditions that were treated
during beneficiaries’ inpatient visits.



Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 14 – Marilyn Tavenner


Figure 2: Percentage Change From 2002 to 2011 in Ambulance
Utilization by State




       Percentage Change                 8%–26%                28%–42%               42%–51%
                                         53%–64%               66%–118%              124%–301%
Note: Two territories experienced significant increases in ambulance utilization, and another territory experienced the only decrease in
utilization. (Ambulance utilization increased 34,092 percent in Guam and 31,613 percent in the Northern Marianas, and decreased
71 percent in Puerto Rico.) However, these three territories together accounted for less than 1 percent of all transports in 2011.
Source: OIG analysis of 2002 to 2011 Medicare Part B ambulance transports, 2013.


In addition to the overall increase in the number of transports, changes in beneficiaries
who received transports and supplier utilization also varied widely by State:
	 Nationally, the number of beneficiaries who received transports increased 34 percent.
    Among the States, the change in the number of beneficiaries who received transports
    varied from an increase of 1 percent in Pennsylvania to an increase of 110 percent in
    California.
	 Nationally, the average number of transports per beneficiary increased 26 percent.
    Among the States, the change in the average number of transports per beneficiary
    varied from a decrease of 1 percent in Vermont to an increase of 85 percent in
    California.
	 Nationally, the number of suppliers increased 26 percent. Among the States, the
    change in the number of suppliers varied from a decrease of 25 percent in Mississippi
    to an increase of 207 percent in Virginia.
	 Nationally, the average number of transports per supplier increased 34 percent.
    Among the States, the change in the average number of transports per supplier varied
    from a decrease of 20 percent in Virginia to an increase of 274 percent in California.

See Appendix C for the changes in these utilization measures for all States and territories.
Appendix C also presents, for all States and territories, changes in the number of
transports for each transport level and changes in the number of transports between




Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 15 – Marilyn Tavenner


various origins and destinations.

After California, the other high-growth States were Virginia, South Carolina, Georgia,
and New Jersey.47 Ambulance utilization in these four States increased between
126 percent and 145 percent. Virginia, South Carolina, and Georgia each accounted for
3 percent of transports in 2011, and New Jersey accounted for 5 percent. The number of
beneficiaries who received transports increased between 39 and 110 percent in the
high-growth States. In contrast, the number of all Medicare fee-for-service beneficiaries
increased between 8 and 24 percent in those same States.

The increase in dialysis-related transports in the high-growth States was much greater
than the national increase. Beneficiaries who received transports in the high-growth
States received between 329 percent and 6,920 percent more dialysis-related transports in
2011 than in 2002. Nationally, dialysis-related transports increased 269 percent. The
greatest increase in dialysis-related transports occurred in South Carolina. In
2002, 2 percent of South Carolina’s transports were dialysis-related, a share that grew to
48 percent in 2011. Additionally, the numbers of beneficiaries with ESRD who received
transports in the high-growth States increased between 83 and 166 percent.48 In four of
the five high-growth States, this increase exceeded the national increase of 85 percent.
Table 6 presents the changes in dialysis-related transports, the percentage of
2011 transports that were dialysis-related, and changes in the number of beneficiaries
with ESRD who received transports within each of the five States and nationally.

Table 6: Percentage Change in Dialysis-Related Ambulance Transports
and Beneficiaries with ESRD Who Received Transports From 2002 to 2011
                       Percentage Change in                 Percentage of             Percentage Change in
 State                      Dialysis-Related         2011 Transports That           Beneficiaries With ESRD
                      Ambulance Transports           Were Dialysis Related         Who Received Transports
 National                                  269%                          19%                           85%
 South Carolina                          6,920%                          48%                           83%
 California                              2,727%                          28%                          166%
 Georgia                                 1,138%                          33%                          102%
 Virginia                                  329%                          26%                          133%
 New Jersey                                857%                          29%                          127%

Source: OIG analysis of 2002 to 2011 Medicare Part B ambulance transports, 2013.


The increase in BLS nonemergency transports in the high-growth States was greater than
the national increase. The high-growth States experienced increases in BLS
nonemergency transports ranging from 126 percent to 554 percent. Nationally, BLS
nonemergency transports increased 94 percent. The greatest increase in BLS
nonemergency transports occurred in California. In 2002, 31 percent of California’s
transports were BLS nonemergency transports, a share that grew to 53 percent in 2011.
47
   Ambulance utilization in Maryland and Alaska increased 138 percent and 136 percent, respectively, but

accounted for 1 percent and less than 1 percent of all 2011 transports, respectively. 

48
   In contrast, the numbers of all Medicare fee-for-service beneficiaries with ESRD in these States 

increased between 18 and 36 percent. 




Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 16 – Marilyn Tavenner


Table 7 presents the changes in BLS nonemergency transports within each of the five
States and nationally.

Table 7: Percentage Change in BLS Nonemergency
Ambulance Transports From 2002 to 2011
                          Percentage Change,                   Percentage of
 State
                                   2002–2011                 2011 Transports
 National                                   94%                            46%
 California                                554%                            53%
 Georgia                                   301%                            51%
 South Carolina                            218%                            68%
 New Jersey                                144%                            71%
 Virginia                                  126%                            51%

Source: OIG analysis of 2002 to 2011 Medicare Part B ambulance transports, 2013.


In the high-growth States, the increase in the number of inpatient hospital visits to treat
renal failure in beneficiaries who received transports was greater than the national
increase. High-growth States experienced increases in the numbers of inpatient hospital
visits to treat renal failure in beneficiaries who received transports. These increases
ranged from 184 percent to 403 percent. Nationally, the number of inpatient hospital
visits to treat renal failure in beneficiaries who received transports increased 158 percent.
The greatest increase occurred in Virginia. In 2002, 1 percent of Virginia’s inpatient
visits associated with transports to hospitals were to treat renal failure, a share that grew
to 3 percent in 2011.




Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 17 – Marilyn Tavenner


CONCLUSION

Payments for ambulance transports from 2002 to 2011 increased 130 percent, compared
to the 74-percent increase in overall Medicare Part B payments. Increases in the
utilization of ambulance transports are disproportionate in relation to increases in the
population of Medicare fee-for-service beneficiaries.

We found that—among many significant changes from 2002 to 2011—dialysis-related
transports were much more common in 2011 than in 2002, increasing 269 percent. In
addition, beneficiaries with ESRD who received transports used a growing and
disproportionate amount of transports each year. Further, the number of Medicare
fee-for-service beneficiaries with ESRD who received transports increased 85 percent
from 2002 to 2011. In contrast, the number of all Medicare fee-for-service beneficiaries
with ESRD increased only 24 percent during that period. We found that high-growth
States experienced increases in dialysis-related transports greater than the national
increase. Although dialysis facilities are a covered destination, transports to them do not
usually meet coverage requirements under Medicare.49

We did not determine whether the utilization changes described in this memorandum
report were appropriate, that is, whether transports met Medicare coverage requirements.
In a forthcoming report, OIG will identify ambulance suppliers that exhibited
questionable billing characteristics in the first half of 2012 and geographic areas with
high numbers of these suppliers.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-09-12-00350 in all correspondence.




49
     Novitas Solutions, Inc., Ambulance (Grounds) Services L32252.



Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
APPENDIX A

Detailed Data Analysis Methodology

We calculated the change in beneficiary, supplier, and transport characteristics from
2002 to 2011.

Beneficiary characteristics. We used the 2002 to 2011 Denominator files to determine
the percentage of Medicare fee-for-service beneficiaries who received ambulance
transports. We calculated the total number of beneficiaries who received transports. We
calculated the average number of transports per beneficiary. We calculated beneficiaries’
average age and the percentage of beneficiaries in each Medicare eligibility category
using the date of birth and eligibility category reported on each claim.50 As another
measure of beneficiaries’ utilization, we also calculated the percentage of transports
received by beneficiaries in each Medicare eligibility category.51

Supplier characteristics. We calculated the total number of ambulance suppliers. We
defined an ambulance supplier as each unique provider identification number, combined
with a Medicare Administrative Contractor identification number, in our population of
ambulance claims.52 We calculated the average number of transports per supplier. In
addition, we calculated the percentages of each supplier’s transports that were billed with
each procedure code, that is, the supplier’s breakdown of transport levels. We identified
suppliers for which at least 75 percent of the supplier’s transports were billed with the
procedure code for a single transport level.

Transport characteristics. Using CMS’s Physician/Supplier Part B claims file, we
calculated the frequency of the different transport levels, the frequency of transport origins
and destinations, the average transport length in miles, and the beneficiary’s medical
condition at the time of transport. We determined the origin and destination using the
two-letter modifier on the claim. We calculated the average transport length in miles. We
determined the beneficiary’s medical condition at the time of transport by analyzing the
International Classification of Diseases code on each ambulance claim.




50
   For 2011 only, we used the Enrollment Database file to identify the beneficiary’s eligibility category.
51
   People can become eligible for Medicare if they are 65 years or older. People under 65 years old can
become eligible for Medicare if they are disabled and/or have ESRD.
52
   We did not use the National Provider Identifier because it was not required before May 2008 and
therefore could not have been used to identify unique suppliers in all the years included in our scope. The
provider identification number is unique only within each Medicare Administrative Contractor’s
jurisdiction; combining the provider identification number and the Medicare Administrative Contractor
identification number allowed us to identify unique suppliers.
Page 19 – Marilyn Tavenner


Detailed Data Analysis Methodology, continued

We analyzed the type of visits (inpatient or outpatient) made by beneficiaries who
received transports to hospitals. We identified claims from CMS’s Inpatient and
Outpatient 100-percent Standard Analytic Files that were associated with transports to
hospitals. We considered an inpatient claim to be associated with the transport if the
beneficiary health insurance claim number matched the number on the transport claim
and the inpatient admission date was within 2 days of the transport. If the transport did
not have an associated inpatient claim, we determined whether the transport had an
associated outpatient claim. We considered an outpatient claim to be associated with the
transport if the beneficiary health insurance claim number matched the number on the
transport claim and the date of service was within 31 days of the transport. We allowed
the additional days for associated outpatient claims because transports may be provided
during an outpatient billing period (for example, during a skilled nursing facility stay). If
the transport had multiple associated outpatient claims, we chose the outpatient claim
with the date of service that was closest to the date of the transport. For associated
outpatient claims, we analyzed the type of bill to determine the most common type of
outpatient facility that provided medical services to the beneficiary. For associated
inpatient claims, we determined the most common Medicare severity diagnosis related
groups (condition) of the inpatient stays.

Characteristics of utilization growth in States with the highest growth. We assigned each
transport to a State based on the beneficiary’s residence ZIP Code reported on the claim.
We assigned each ambulance supplier to a State based on the majority of its transports.
For each State, we calculated the change from 2002 to 2011 in the number of transports,
number of beneficiaries who received transports, average number of transports per
beneficiary, number of suppliers, and average number of transports per supplier. We also
calculated the change during this period by State in the frequency of transports of
different levels and transport origins and destinations.

We identified the States with the largest utilization increases that also accounted for at
least 3 percent of 2011 transports nationally (high-growth States). We determined the
extent to which these high-growth States experienced changes from 2002 to 2011 that
differed from the national changes in transport destinations, transport levels, and medical
services received by beneficiaries who received transports to hospitals.




Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
Page 20 – Marilyn Tavenner


APPENDIX B

Number of Ambulance Transports From 2002 to 2011 for Selected Transport Levels

               8
    Millions




               7

               6                                                                                                   Basic life support
                                                                                                                   nonemergency
               5
                                                                                                                   Advanced life support
               4                                                                                                   emergency

               3                                                                                                   Basic life support
                                                                                                                   emergency
               2
                                                                                                                   Advanced life support
               1                                                                                                   nonemergency


               0
                   2002   2003   2004    2005     2006     2007     2008    2009     2010     2011

Source: OIG analysis of 2002 to 2011 Medicare Part B ambulance transports, 2013. 

Note: Three of the seven transports levels (paramedic advanced life support intercept, advanced life support 2, and specialty care 

transport) are not shown in this figure because collectively they represented less than 2 percent of all transports each year.





Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
 Page 21 – Marilyn Tavenner


APPENDIX C

Table C-1: Percentage Changes From 2002 to 2011 in Utilization Measures by
State
                                                 Number of               Average                           Average Number
                             Number of                                                    Number of
                                               Beneficiaries           Number of                           of Transports per
 State                      Ambulance                                                    Ambulance
                                              Who Received         Transports per                                Ambulance
                            Transports                                                     Suppliers
                                                 Transports           Beneficiary                                   Supplier
 National                            69%                  34%                   26%              26%                      34%
 Alabama                             49%                  26%                   18%             -13%                      71%
 Alaska                            136%                  108%                   13%              93%                      22%
 Arizona                             42%                  33%                     6%              -4%                     48%
 Arkansas                            63%                  48%                   10%               -1%                     65%
 California                        289%                  110%                   85%                4%                    274%
 Colorado                            77%                  52%                   16%                6%                     66%
 Connecticut                         70%                  37%                   24%              21%                      40%
 Delaware                          118%                   74%                   25%              19%                      83%
 District of Columbia              301%                  239%                   18%             -50%                     702%
 Florida                             46%                  23%                   18%                7%                     36%
 Georgia                           133%                   44%                   61%              13%                     107%
 Guam                           34,092%                  693%                4,214%                  *                         *
 Hawaii                              95%                  77%                   10%                0%                     95%
 Idaho                               46%                  34%                   10%              77%                      -17%
 Illinois                            64%                  45%                   13%              41%                      16%
 Indiana                           118%                   36%                   60%              31%                      66%
 Iowa                                42%                  31%                     8%             12%                      26%
 Kansas                              42%                  30%                     9%               4%                     37%
 Kentucky                            41%                  22%                   15%              37%                        3%
 Louisiana                           20%                  11%                     7%               4%                     15%
 Maine                               26%                  14%                   10%                1%                     25%
 Maryland                          138%                  103%                   17%              24%                      91%
 Massachusetts                       41%                  30%                     9%               1%                     39%
 Michigan                            41%                  12%                   25%              16%                      22%
 Minnesota                           25%                  13%                   10%             -16%                      48%
 Mississippi                         53%                  36%                   12%             -25%                     104%
 Missouri                            50%                  42%                     6%             11%                      35%
 Montana                             33%                  23%                     8%               6%                     26%
 Nebraska                            61%                  42%                   14%              37%                      18%
 Nevada                              71%                  53%                   12%              10%                      55%
 New Hampshire                       53%                  35%                   13%                5%                     46%
 New Jersey                        126%                   42%                   59%              75%                      29%
*We assigned each ambulance supplier to a State based on the majority of the supplier’s claims. Using this method, the State had
zero suppliers in 2002 and/or 2011.
                                                                                                        continued on next page




 Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
 Page 22 – Marilyn Tavenner


Table C-1: Percentage Changes From 2002 to 2011 in Utilization Measures by
State, continued
                                                 Number of                Average                          Average Number
                             Number of                                                    Number of
                                               Beneficiaries            Number of                          of Transports per
 State                      Ambulance                                                    Ambulance
                                              Who Received          Transports per                               Ambulance
                            Transports                                                     Suppliers
                                                 Transports            Beneficiary                                  Supplier
 New Mexico                          54%                   38%                  12%                1%                      53%
 New York                            31%                    9%                  20%               23%                       6%
 North Carolina                      83%                   56%                  17%               87%                      -2%
 North Dakota                        24%                   10%                  13%               -1%                      25%
 Northern Marianas              31,613%                  413%                6,088%                   *                        *
 Ohio                                54%                   27%                  21%               60%                       -4%
 Oklahoma                            51%                   42%                    7%             -19%                      87%
 Oregon                              38%                   23%                  12%               41%                       -3%
 Pennsylvania                        66%                    1%                  64%                1%                      64%
 Puerto Rico                        -71%                  -58%                  -33%              72%                     -83%
 Rhode Island                       124%                   83%                  23%               41%                      60%
 South Carolina                     140%                   39%                  73%               93%                      24%
 South Dakota                        40%                   29%                    8%               5%                      34%
 Tennessee                           64%                   35%                  22%               24%                      32%
 Texas                               51%                   31%                  15%               46%                       3%
 Utah                                 8%                    2%                    5%              11%                       -3%
 Vermont                             28%                   29%                   -1%               9%                      18%
 Virgin Islands                      83%                   29%                  42%              -33%                     174%
 Virginia                           145%                   96%                  25%             207%                      -20%
 Washington                          60%                   43%                  12%               86%                     -14%
 West Virginia                       22%                    7%                  14%               -1%                      23%
 Wisconsin                           24%                    7%                  15%                3%                      20%
 Wyoming                             51%                   39%                    9%               2%                      48%
*We assigned each ambulance supplier to a State based on the majority of the supplier’s claims. Using this method, the State had

zero suppliers in 2002 and/or 2011. 

Source: OIG analysis of 2002 to 2011 Medicare Part B ambulance transports, 2013. 





 Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
   Page 23 – Marilyn Tavenner


Table C-2: Percentage Changes From 2002 to 2011 in the Number of Transports in
Each Transport Level by State
                                                                                                                          Specialty
                                      ALS                 ALS                   BLS                  BLS
                                                                                                              ALS2             Care
 State                       Nonemergency           Emergency          Nonemergency            Emergency
                                                                                                            (A0433)       Transport
                                  (A0426)             (A0427)               (A0428)              (A0429)
                                                                                                                            (A0434)
 National                                 -40%               68%                     94%             57%       18%             114%
 Alabama                                  -29%               38%                     74%             45%      132%             196%
 Alaska                                    22%              206%                   124%             101%        8%              57%
 Arizona                                   25%               50%                     20%             39%      -31%              21%
 Arkansas                                 -16%               95%                     58%             67%       46%             205%
 California                                15%              180%                   554%             157%       82%             371%
 Colorado                                 -46%               96%                     83%             87%       29%             -37%
 Connecticut                                 1%              93%                     65%             73%      -69%              58%
 Delaware                                 -34%               85%                   109%             134%      100%              22%
 District of Columbia                     137%           2,898%                      53%           1,598%   3,333%             500%
 Florida                                  -60%               58%                     69%             34%        4%             229%
 Georgia                                  -18%               58%                   301%              97%        2%             394%
 Guam                                        0%             274%              143,200%              117%          *                 *
 Hawaii                                   210%              134%                   117%              18%       32%             329%
 Idaho                                     35%               53%                     65%             33%      128%             -12%
 Illinois                                    5%              99%                     44%             62%      122%              72%
 Indiana                                   32%               91%                   183%              36%      -24%             283%
 Iowa                                     -36%               56%                     31%             61%       21%              61%
 Kansas                                   -23%               53%                      9%             64%       10%              71%
 Kentucky                                   -4%              46%                     49%             28%       25%             -22%
 Louisiana                                -47%               18%                     27%             39%       77%             612%
 Maine                                    -26%               37%                     20%             30%      -56%             124%
 Maryland                                  21%              201%                   108%             235%       91%               5%
 Massachusetts                             14%               84%                     29%             33%       -8%             151%
 Michigan                                 -24%               32%                     70%             28%       17%             309%
 Minnesota                                -13%               28%                      -3%            47%      -21%             -51%
 Mississippi                              -20%               38%                     69%            322%       25%             367%
 Missouri                                 -46%               71%                     36%             89%       70%               7%
 Montana                                  -40%               55%                      -7%            28%      149%              92%
 Nebraska                                  12%               52%                     39%             89%      399%             -71%
 Nevada                                   -21%              106%                      8%             21%       63%              54%
*The State had zero transports billed under that particular transport level in 2002 and/or 2011.
                                                                                                                 continued on next page




   Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
 Page 24 – Marilyn Tavenner


Table C-2: Percentage Changes From 2002 to 2011 in the Number of Transports in
Each Transport Level by State, continued
                                                                                                                    Specialty
                                     ALS                 ALS                   BLS                  BLS
                                                                                                            ALS2         Care
 State                      Nonemergency           Emergency          Nonemergency            Emergency
                                                                                                          (A0433)   Transport
                                 (A0426)             (A0427)               (A0428)              (A0429)
                                                                                                                      (A0434)
 New Hampshire                            12%              61%                     48%             59%       10%         38%
 New Jersey                              -69%             359%                    144%             79%      525%         75%
 New Mexico                              -31%              72%                     36%             45%      239%         63%
 New York                                -41%              39%                     35%             27%        6%         69%
 North Carolina                          -33%              99%                     75%             105%     161%         41%
 North Dakota                             -8%              32%                     22%             24%      -38%        -71%
 Northern Marianas                      200%              900%               251,600%              40%          *           *
 Ohio                                    -14%              89%                     48%             37%      -33%         84%
 Oklahoma                                -32%              82%                     16%             49%       97%        282%
 Oregon                                  -35%              41%                     26%             68%       29%         69%
 Pennsylvania                            -14%              17%                    159%             16%      -19%        127%
 Puerto Rico                             -90%                6%                   -74%             -51%     231%        -12%
 Rhode Island                            -90%             222%                     92%             325%     214%        141%
 South Carolina                          -21%              57%                    218%             87%       -5%        243%
 South Dakota                            -45%              76%                    -10%             42%       -5%         32%
 Tennessee                               -46%              95%                     65%             93%      -13%        712%
 Texas                                   -83%              41%                    106%             122%      19%        226%
 Utah                                    -15%              27%                    -26%              4%      -39%        -55%
 Vermont                                  16%              77%                       2%             9%       24%         41%
 Virgin Islands                           30%           1,347%                    219%             -91%         *        17%
 Virginia                                -22%             238%                    126%             165%     175%          4%
 Washington                               11%              82%                     30%             81%       33%          3%
 West Virginia                            -3%              10%                     26%             37%      -60%        111%
 Wisconsin                                12%              55%                     29%              0%       40%        -17%
 Wyoming                                 -42%              92%                     53%             42%      140%         84%
*The State had zero transports billed under that particular transport level in 2002 and/or 2011.
Source: OIG analysis of 2002 to 2011 Medicare Part B ambulance transports, 2013.




 Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
                Page 25 – Marilyn Tavenner


Table C-3: Percentage Changes From 2002 to 2011 in the Number of Transports Between
Various Origins and Destinations by State
                                                                                                                                                        Between an
                                                             Between a                                                        Between an
                                   Between a                                                                                                           Independent
                                                           Hospital and                                From an               Independent
                                 Hospital and                                       Between                                                         Dialysis Facility
 State                                                          SNF or                              Accident to           Dialysis Facility
                                      Private                                      Hospitals                                                             and SNF or
                                                            Residential                              a Hospital                and Private
                                  Residence                                                                                                              Residential
                                                              Facility**                                                        Residence
                                                                                                                                                             Facility
 National                                   51%                        49%                53%                112%                       264%                    285%
 Alabama                                    25%                       23%                 32%                142%                       297%                    328%
 Alaska                                    142%                      138%                133%                289%                             *                      *
 Arizona                                    29%                       36%                102%                118%                     2,665%                    116%
 Arkansas                                   48%                       46%                 44%                319%                       288%                    646%
 California                                173%                      277%                164%                146%                     3,255%                  2,652%
 Colorado                                   74%                        62%                58%                136%                     1,670%                    826%
 Connecticut                                77%                       61%                 35%                114%                       184%                     86%
 Delaware                                  144%                        41%               112%                121%                       604%                    228%
 District of Columbia                      993%                       41%                242%             3,709%                    21,300%                     432%
 Florida                                    22%                        48%                33%                114%                       416%                    407%
 Georgia                                    51%                        68%                27%                245%                     2,125%                    657%
 Guam                                   7,655%                       778%                220%                850%                             *                      *
 Hawaii                                    125%                       51%                  -6%               137%                        -13%                   400%
 Idaho                                      37%                        96%                15%                 31%                             *                      *
 Illinois                                   87%                        38%                51%                111%                       291%                     72%
 Indiana                                    76%                       67%                 76%                 65%                       658%                    458%
 Iowa                                       45%                        31%                57%                 59%                             *                 -97%
 Kansas                                     50%                       25%                 31%                 65%                       457%                    -78%
 Kentucky                                   12%                       24%                 65%                242%                       189%                    146%
 Louisiana                                  28%                        -2%               260%                 41%                         88%                   107%
 Maine                                      19%                       16%                 34%                 78%                       251%                     77%
 Maryland                                  179%                       83%                 91%                570%                     3,824%                    225%
 Massachusetts                              38%                       14%                 25%                159%                       121%                    178%
 Michigan                                   24%                       28%                 19%                 59%                       949%                    426%
 Minnesota                                  33%                        -1%                29%                 58%                       291%                    102%
 Mississippi                                48%                       34%                 90%                 67%                       114%                    168%
 Missouri                                   53%                       35%                 76%                 97%                       502%                    -16%
 Montana                                    28%                       60%                 23%                 44%                        -39%                   -99%
 Nebraska                                   52%                       94%                 45%                 47%                             *                 -47%
 Nevada                                     69%                       76%                104%                 98%                        -67%                   551%
 New Hampshire                              43%                       35%                 58%                123%                     1,840%                    280%
 New Jersey                                122%                       35%                 26%                267%                     1,129%                    607%
*The State had zero transports billed with that particular origin and destination in 2002 and/or 2011. 

**“Residential facilities” refers to residential, domiciliary, or custodial facilities and includes, for example, assisted living facilities. 

                                                                                                                                                  continued on next page




                Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
                Page 26 – Marilyn Tavenner


Table C-3: Percentage Changes From 2002 to 2011 in the Number of Transports Between
Various Origins and Destinations by State, continued

                                                                                                                             Between an               Between an
                                                             Between a                                                                               Independent
                                   Between a                                                                                Independent
                                                           Hospital and                                From an                                    Dialysis Facility
                                 Hospital and                                       Between                                     Dialysis
 State                                                          SNF or                              Accident to                                        and SNF or
                                      Private                                      Hospitals                                 Facility and
                                                            Residential                              a Hospital                                        Residential
                                  Residence                                                                                       Private
                                                              Facility**
                                                                                                                              Residence                    Facility
 New Mexico                                 42%                        23%                42%                149%                  7,640%                    444%
 New York                                   23%                        17%                 -5%                83%                     399%                   281%
 North Carolina                             67%                        94%                57%                116%                     173%                    59%
 North Dakota                                -6%                       18%                23%                222%                           *                     *
 Northern Marianas                      8,600%                             *                   *                0%                          *                     *
 Ohio                                       73%                        17%                66%                132%                     272%                   156%
 Oklahoma                                   70%                        25%                79%                 58%                     260%                    42%
 Oregon                                     14%                      107%                 28%                 45%                  3,650%                    214%
 Pennsylvania                               16%                        19%                41%                 36%                  1,436%                    422%
 Puerto Rico                               -51%                        20%                -63%                20%                     -67%                     9%
 Rhode Island                              313%                        60%                22%                478%                     132%                    78%
 South Carolina                             59%                        83%                45%                 48%                  9,659%                  4,535%
 South Dakota                               47%                        28%                17%                 38%                  1,500%                         *
 Tennessee                                  41%                        35%                80%                126%                     186%                   162%
 Texas                                      56%                        95%                72%                 35%                     -33%                   108%
 Utah                                        -1%                       -5%                 74%                27%                           *              5,350%
 Vermont                                    27%                        27%                73%                 92%                           *                579%
 Virgin Islands                             37%                        77%               108%                -27%                           *                     *
 Virginia                                  170%                       83%                 63%                362%                    427%                    253%
 Washington                                 43%                       71%                 86%                109%                    192%                    137%
 West Virginia                                1%                      17%                 47%                104%                    103%                     79%
 Wisconsin                                  15%                       27%                 50%                 20%                    226%                    298%
 Wyoming                                    46%                       35%                 67%                 91%                           *                500%
*The State had zero transports billed with that particular origin and destination in 2002 and/or 2011. 

**“Residential facilities” refers to residential, domiciliary, or custodial facilities and includes, for example, assisted living facilities. 

Source: OIG analysis of 2002 to 2011 Medicare Part B ambulance transports, 2013. 





                Utilization of Medicare Ambulance Transports, 20022011 (OEI-09-12-00350)
